Audit Report

Office of Justice Programs Grants Awarded to the Mississippi Band of Choctaw Indians  Grant Numbers  1997-WI-VX-0024, 1999-IP-VX-0001, 1999-VR-GX-0011, and 2001-TY-FX-0038,  
Choctaw, Mississippi

Report No. GR-40-05-003


January 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) grants, including supplements, awarded to the Mississippi Band of Choctaw Indians (MBCI) headquartered in Choctaw, Mississippi.  The purpose of the grants was to: 1) stop violence against Indian women, 2) build a correctional facility,  
3) provide assistance to victims of crime, and 4) prevent juvenile delinquency and promote the mental health of tribal youth.

We tested the MBCIs accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  As of June 16, 2004, the MBCI had been reimbursed $16,278,896 of the  $18,198,020 grant funds awarded. 

Our audit found deficiencies in the areas of reporting, budget management and control, matching costs, and expenditures.  Further, some property purchased with federal funds was not managed according to OJP guidelines.  The MBCI also made several advance payments which are generally prohibited by federal regulations.  As a result of these deficiencies, we question $191,872, or 1.1 percent, of the total grant funds awarded.1   Specifically, we found:

Financial status reports and progress reports were not always submitted or submitted timely for all grants.

	Progress reports were either not submitted or not submitted timely.


	The MBCI did not provide the required matching share or costs from the Victims Assistance in Indian Country grant (Grant Number 1999-VR-GX-0011).

	The MBCI received $191,872 in grant funds that was either not supported by adequate documentation, not allowable, not approved by OJP, or exceeded the amounts approved by OJP. 

	Some equipment purchased with grant funds did not have an inventory control tag and the property records did not indicate the percentage of federal participation in the cost of the property. 

	The MBCI made advance payments that are prohibited by regulations. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.